                                   EXPORT-I MPORT BANK
OSVALDO L. GRATACÓS                of the UNITED STATES
INSPECTOR GENERAL


 FOR IMMEDIATE RELEASE                                                   November 21, 2011
 Media Contact: Laura Wohlford (202-565-3908)

                     Export-Import Bank of the United States
          Office of Inspector General Seeks Information on Fugitives

Washington DC – The Office of Inspector General (OIG) for the Export-Import Bank of the
United States (Ex-Im Bank) announced today that pursuant to an ongoing joint
investigation, several federal indictments were unsealed in El Paso, TX. As a result of the
unsealing, investigators are currently attempting to locate and arrest 11 fugitives charged
as a result of the joint investigation related to export financing fraud.

Ex-Im Bank, the official U.S. export credit agency, assists in financing the export of U.S.
goods and services to international markets to help U.S. companies maintain and create
U.S. jobs. In particular, Ex-Im Bank issues loan insurance and guarantees to financial
institutions that provide credit to foreign companies so they can purchase U.S. goods and
services. Ex-Im Bank’s loan insurances and guarantees provide that if the foreign
borrower defaults on its loan repayments to the lending institution, Ex-Im Bank will
reimburse the amount of the outstanding loan principal and interest to the lending
institution.

The OIG investigations have found that the fugitives and several other defendants
conspired to defraud Ex-Im Bank of millions of dollars through various loan schemes to
finance fictitious and fraudulent exports of purported U.S. manufactured goods into
Mexico. As a result of their actions, the loans defaulted, resulting in over $22 million in
claims paid by Ex-Im Bank to various lending banks. The defendants in each of the cases
have been charged with a variety of federal criminal violations to include conspiracy, wire
fraud, and money laundering. Since 2010, the cases have resulted in 24 criminal
indictments, 4 criminal informations, 21 arrest warrants, 12 arrests, and 5 convictions
resulting in prison sentences and over $4.6 million in criminal restitution and $5.6 million in
court ordered forfeiture.

Federal Agents are currently seeking the location and arrest of 11 fugitives charged in the
unsealed federal indictments, and who are believed to be residing in or near Ciudad
Juárez, Chihuahua, Mexico. These fugitives are:

         Sergio Acosta-Camacho, a Mexican citizen and former owner of AML
          Construction;




                811 Vermont Avenue, N.W. Washington, D.C. 20571
         Pedro Ruvalcaba-Placencia, a Mexican citizen and owner of a business, Delicas
          Nuez, in Ciudad Juarez;

         Alfredo Rodela-Campos, a Mexican citizen residing in Chihuahua;

         Jorge Martinez-Joo, a Mexican citizen and former owner of El Paso-based
          exporter, El Paso Valcomar Inc.;

         Manuel Ernesto Ortiz-Barraza, a Mexican citizen residing in Chihuahua;

         Adrian Rascon-Chavez and his wife Genoveva Fontes de Rascon, both United
          States citizens and former owners of Juárez-based clinic Centro Oncológico de
          Norte SA;

         Maria de Jesús Ortiz-Saldivar, a Mexican citizen and the former accountant of
          Genoveva Fontes de Rascon;

         Jorge Valdez-Cota and his wife, Veronica Iglesias-Lucero, both Mexican citizens
          and owners of a metal fabrication shop in Ciudad Juárez; and

         Gilberto Ruiz-González, a Mexican citizen, resident of Ciudad Juárez, and owner
          of Passage Supply.

Ex-Im Bank OIG, Immigration Customs Enforcement-Homeland Security Investigations
(HSI), the U.S. Postal Inspection Service, and Internal Revenue Service-Criminal
Investigations in Washington, D.C. are conducting this joint investigation. HSI Special
Agents in El Paso and Mexico are assisting Ex-Im Bank OIG agents to locate the fugitives
through liaison efforts with Mexican law enforcement authorities.

Through their fraudulent schemes of fictitious exports of U.S. goods to Mexico, these
individuals caused significant losses and undermined Ex-Im Bank’s mission of helping
U.S. companies create or maintain U.S. jobs by promoting exports.

Individuals with information concerning the location of the fugitives in question may call the
Ex-Im Bank OIG Hotline at 1-888-OIG-EXIM (1-888-644-3946) or HSI Communications at
1-407-975-1820 or 1-800- BE-ALERT (1-800-232-5378).

Ex-Im Bank is an independent executive agency that helps create and maintain U.S. jobs
by filling gaps in private export financing at no cost to American taxpayers. Ex-Im Bank
provides a variety of financing mechanisms, including working capital guarantees, export-
credit insurance, and financing to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations.
Additional information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations can be
reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.
